                       Closeout of M91050025   a




  is case was brous:




allegation was plagiarism, in that a section of this proposal was
copied to a great extent from a published paper written by other
authors, and that this was done without acknowledgement.
At its request, OIG deferred investigating this case while the
institution performed its own investigation. The institution found
a laxity in research practice that constituted,aserious objective
violation of professional standards of scholarship, but it did not
find that plagiarism had been committed.      It imposed several
sanctions against the subject, including a prohibition from
submitting proposals to federal agencies for two years.
OIG prepared and sent to the Deputy Director of NSF an
investigation report recommending that the Deputy Director make a
finding that the subject had committed plagiarism and take certain
actions to protect the government's interest. In November 1992 the
Deputy Director and the subject signed a settlement agreement that
resolves this case. Copies of the OIG investigation report and the
settlement agreement are attached.
                                                     ..
                               N A T I O N A L SCIENCE FOUNDATION
                                     WASHINGTON.D.C. 20550




       -
    O F F I C E OF T H E
   DEPUTY DIRECTOR




                  Re:      Scientific Misconduc
                           Grant Proposals Nos.

Dear
The referenced grant proposals that you submitted to the National
Science Foundation (NSF) included text and mathematical formulas
copied without                             published by other
authors. Your                                                 ,
                                          (the "Institutionfi1)
investigated a                            d 'research misconduct1
and plagiarism by including this material in your grant
proposals. It found you "guilty of unacceptable negligence and
hence research rnisc~nduct.~~NSF1s Office of the Inspector
General (OIG) issued its own Investigation Report, concluding
that you committed scientific misconduct -- specifically,
plagiarism.
You responded to the OIG Investigation Report by denying any
plagiarism. You argued that plagiarism requires the deliberate
intent to appropriate the text or ideas of others. You then
claimed that your failure to include proper citations in the
grant proposals resulted from careless, not deliberate, action.
We do not find it necessary to determine whether your failure to
include proper citations in your grant proposals was deliberate.
Plagiarism, under NSFfis        misconduct regulations, does not require
that level of intent. Here, the Institution found that you
exhibited "a reckless disregard for appropriate procedures of
s c h ~ l a r s h i p ,and
                        ~ that you fitknowingly
                                              and repeatedly [engaged] in
a pattern of research note-taking that, given enough time, was
inevitably going to produce precisely the situation that arose
with [your] NSF grant proposal^.^^ When that situation occurred,
it constituted plagiarism under our regulations.
We believe the Settlement Agreement you forwarded to us imposes
adequate sanctions under the circumstances, and are enclosing a
fully executed copy of that Agreement for your files.
If you have any questions regarding the foregoing, please feel
free to contact me.
                              Sincerely

                            -d
                             Frederick M. Bernthal
                             Deputy Director
Enclosure
                          NATIONAL SCIENCE FOUNDATION
                              WASHINGTON. D . C . 20550




                                  AGREEMENT

                                           I.
                                         Recitals

A.   Associate Professor                (the "PI"), of                       (the "institution"),
     submitted to the                                             application number-
     in March 1990, grant application number                   in November 1990, and grant
     application                                                 was Listed as the sole Principal


B.   The PI included in these grant applications text 4                         ' from an
     article published by other authors. In these grant applications, the PI did not give
     attribution to the authors of the article.

C.   Based on an investigation conducted by the institution into this matter, the institution has
     imposed the following sanctions on the PI:

     1.     The PI is prohibited from submitting grant applications to NSF and all other
            federal funding agencies until December 19, 1993.

     2.     The PI will be denied salary increases until June 1, 1994.

     3.     The PI will submit copies of each of his grant applications to his department chair
            until December 19, 1995, for a careful review prior to submitting the application
            to any funding source to ensure that the PI has engaged in proper scholarly
            practices. In addition, the PI will certify in writing that he has recently reviewed
            the institution's guidelines on misconduct in science and that the grant application
            is free of any misconduct.

     4.     The PI will send letters of apology to the authors of the article.
                                          11.
                                    Representations

A.   The PI acknowledges that his inclusion in an NSF proposal of text and -from              an
     article published by other authors without proper attribution is improper. The PI
     represents that to the best of his knowledge these are the only grant applications in which
     he utilized the work of another without attribution. The PI further represents that he is
     genuinely remorseful for failure to give proper scholarly attribution to the work of
     others, and that he will not do it again.

B.   At the time of his signing of this Agreement, the PI has no grant applications pending
     to any federal agency.

C.   At the time of his signing of this Agreement, the PI does not intend. to seek to have the
     institution modify the sanctions imposed on him by the institution.

D.   At the time of his signing of this Agreement, the PI does not intend to seek full-time
     employment with any other institution.

E.   The PI has ca@ully read and understands all provisions of this Agreement, is fully
     satisfied with the terms and effects of this Agreement, and has decided to execute this
     Agreement of his own free will after consultation with legal counsel of his own choice.
                                              m.
                                          Agreement

       After careful evaluation, in reliance on the recitals and representations set out above and
being aware of no contrary facts, tlk PI and NSF agree as follows:

A.     If, prior to December 19, 1993, the PI is an applicant (as principal investigator or co-
       principal investigator) or is among the senior, key, or supervisory personnel on an
       application for financial or nonfinancial assistance or benefits submitted to any federal
       agency, the PI will provide that agency with a copy of this Agreement along with that
       application.

B.     If, prior to December 19, 1993, the PI applies .for full-time employment at any other
       institution, the PI will provide that institution with a copy of this Agreement along with
       that application.

C.     Until December 19, 1995, the PI will have all grant applications that are to be submitted
       to a federal agency reviewed by his department chair or a similar university official, in
       order to ensure that the PI has engaged in proper research practices. On those occasions,
       the PI should certify in writing that he has recently reviewed his institution's guidelines
       on misconduct in science, and that, to the best of his knowledge, his grant application
       is free of any such misconduct, and that his grant application has been reviewed as
       described herein. Concomitant with his submission of each grant application, the PI will
       send a copy of each certification to the Assistant Inspector General for Oversight in
       NSF's Office of Inspector General, to be placed in that office's file for this matter,

       If the PI fails to comply with any term of this Agreement, or if any of the recitals or
       representations is not true to the best of his knowledge at the time of his signing of this
       Agreement, he hereby agrees that such a circumstance will constitute a breach of this
       Agreement and thus an independent cause of so serious or compelling a nature that it will
       then affect the present responsibility of the PI, and will thus constitute sufficient grounds
       for governmentwide debarment for five years from the date of breach, pursuant to NSF's
       nonprocurement debarment regulation (45 C. F.R. part 620); the PI. hereby waives his
       right to challenge such a debarment, except with regard to whether this Agreement has
       been breached.

E.      NSF will take no further action against the PI for his actions addressed by the institution
        and NSF in this matter.

F.      This Agreement contains the entire agreement between the parties regarding the above-
        described matter, and no oral representation, promise, or agreement by and among the
        parties to the settlement has been given, can be relied upon, or is of any effect
        whatsoever. No modification, alteration, or addendum to this Agreement shall be valid
        unless written and executed by both parties thereto.
G.    This Agreement terminates and settles this matter, and no party may bring any legal
      action regarding this matter except concerning breach of this Agreement.

H.    This Agreement will be null and void if it is not executed by the Deputy Director of NSF
      within ten (10) calendar days after the signing of this Agreement by the PI and his
      counsel.




                                                                                         Date



                                                                      d4$,/%%            Date




                                                                                     I
Deputy Director, National Science Foundation                                             Date
                             INVESTIGATION W O R T
                    NJISCONDUCT IN SCIENCE AND ENGINEERING
                           BY PROF. f      Z       #

Summary. The Office of Inspector General (OIG) has determined that Prof.
of                 committed plagiarism in a grant proposal that he submitted to NSF. This
conclusion is based on an investigation performed by the institution, which found misconduct,
but not plagiarism. The institution's investigation report is attached, and is supplemented for
the Government's purposes by this report. OIG recommends that NSF make a frnding of
plagiarism and impose appropriate sanctions.

                                                                              the Department of
                                                                              In November 1990



the title"
         It was given the number
                                 - and
again he was sole PI.-

OIG subsequently received an allegation that the section of these proposals labeled -'




OIG sent an inquiry letter to the subject about this allegation in July 1991, receiving a reply in
August 1991 that did not seem to resolve the matter. In December 1991 OIG sent the institution
a request for a formal investigation. The institution performed a preliminary inquiry, and in
February 1992 the Committee on Misconduct in Research of the University Research Council
was convened to conduct a full investigation. OIG received the report of that ~vestigationfrom
the Director of the institution's Office of Research Administration on ~ ~ 1 ~ 1 1 9 9 2 .

The investigating committee found that:

       "by his own defense, [the subject] has acknowledged a laxity in research practices
       that constitutes a serious objective violation of professional standards of
       scholarship. Therefore, the Committee finds that, by following reckless research
       procedures that resulted in a failure to give proper scholarly attribution to a
       published article which was a source of ideas and wording in proposals submitted
       to the National Science Foundation, [the subject] is guilty of unacceptable
       negligence and hence of research misconduct, as defined in Section IIl of the
       university's Guidelines on Misconduct in Research." (p. 2 of investigation report)

In his July letter to OIG, the Director of Research Administration notified us that the institution
had imposed the following sanctions on the subject:
 I.     The subject is prohibited from submitting proposals to the National Science
        Foundation and all other Federal agencies for a period of two years. "The two
        year period will begin on December          1991 which is the date of your letter to
        me indicating that an investigation into this matter was required. We feel that the
        two year 'debarment' is appropriate, but that it should be made retroactive to that
        date because [the subject) has been debarred de facto until the matter was to be
        resolved under our policy."

 2.     The subject will be denied salary increases until June 1, 1994.

 3.     The subject will submit copies of all proposals to the department chair for a
        period of four years for a careful review to ensure that [the subject] has engaged
        in proper scholarly practices. In addition, he will certify in writing that he has
        recently reviewed the University's Guidelines on Research Misconduct and that




                                                                        -
        the proposal is free of any misconduct.

 4.     The subject will send letters of apology to ~        r      s      .      0      .




mb
 The evidence for plapiarism. The committee found a third and very similar proposal,-
             which the subject submitted in March 1990 and which also copied from the
                     paper. The committee's report finds that the subject "admits that his NSF
 propos s contam ideas and exact phrasing from an article to which he failed to give any
 attribution. " @. 1) "[The subject] concedes that he r    e     a    d     , took extensive notes
 from it, and subsequently incorporated material from those notes into his          and-
 proposals." @. 3) "By [the subjectl's own admission--buttressed by the assessment of other
 e x p e r t s - a n d i d have an original idea in their                             article, and
 by his reckless disregard for proper methods of research and writing, [the subject] denied those
 authors the credit to which they were justly due." @. 20) These conclusions are supported by
 a Correlation of Texts appended to the report, which shows that "of the thirty-four sentences in
 [the subjectl's section -on hydration forces, roughly half are counterpahs of passages in
,-                    including all of the section's mathematical formulas." @. 4)

 Further, the committee found sentences in the November proposal that were copied without
 attribution from another paper by other authors (p. 8). The subject thus showed repeated
 instances of plagiarism. OIG has not found it necessary to expend its scarce resources on
 examining his previous eight proposals to NSF for similar instances of plagiarism.

 By NSF's standards, these findings are sufficient to demonstrate that plagiarism occurred, as will
 be explained below. The committee did not find plagiarism, however, on the grounds that the
 institution's "Guidelines on Misconduct in Research define plagiarism as a form of misconduct
 which 'is distinguished from honest error by the presence of intent to deceive' ...." @. 4) "The
 central issue in a question of plagiarism is [the subjectl's intent." @. 22) The committee did not
 find evidence for intent that it considered sufficient, and therefore it made a finding of
 unacceptable negligence amounting to research misconduct as quoted above.
The subiect's defense. In               991 letter to OIG, the subject states that "The omission
of citation to the paper by              and-         from the third and fourth paragraphs was
clearly an oversight on my part." He claims that it was his intention to include references to
it in four places in these two paragraphs of the
                                               I -   '                section.

In his testimony to the committee, the subject explained that it was his habit to take notes while
reading journal articles. These notes were a mixture of material copied from the articles,
references, and additions of his own. He sometimes copied material verbatim into the notes
without using quotation marks or indicating the source. When he wrote proposals, he used these
notes and sometimes copied from them verbatim. By that time, however, he often did not know
that he was putting into the proposal material taken from the original journal articles, and he did
not check on his sources before sending the proposals to NSF.
                                                             -. -
He further explained that when he took notes on the                     article, he recorded only
              name as the source. He cannot e x p l ! ! ! m i s t o o k           the
                                               alone, and he cited only the latter in the section
where he copied from                                  argued that he was confused by the large
number of citations in his proposal. The "idea" not cited was included with materials that were
common knowledge, and not in need of citation. In March 1990, when he submitted his first
proposal, he was under great personal stress. The November and December submissions were
quick revisions made in response to specific referee comments, and he was not looking for
citation errors.

The subject did not produce his notes in order to substantiate some of these claims. He
explained to the committee that in April 1991, prior to receiving a letter from OIG about his
November 1990 proposal, he moved to a new office that could not accommodate his collection
of research notes and articles. He said that his chairman urged him to throw away materials that
were no longer necessary for ongoing projects. He testified ambiguously that he threw out all
or most of his notes, with the help of his graduate students. He provided no evidence in support
of this claim.

Evaluation of subject's defense. Evaluation is ,complicated by the fact that the university
investigation did not clear up some difficulties inthis defense. For example, the subiect was
inconsistent in telling OIG that he intended to put the references to th
into his proposals, while he later told the committee that he did not
he wrote the proposals. Similarly, the story of the missing notes was not-adequately
investigated. ..

Even so, the report does raise some significant doubts about the defense. On the missing notes,
it remarks that the subject's "decision to discard research notes for a prospective research project
still under review for funding by NSF seems rather unusual." (p. 17) It shows that the subject
consulted his notes again when-redrafting the November prop6sal and inserted new text taken
verbatim from a            n          d the other source, again without attribution. It also makes
telling points against the claim that the subject confused the                    article with the
0                 article.

In sum, there is patent physical evidence for plagiarism, while the defense is based on assertions
about the subject's patterns of notetaking and his thoughts while taking and using his notes for
which no further evidence has been offered. Even if the notes existed as described, they only
illustrate the mechanism by which the offense was done. The intermediate use of notes does not
affect whether plagiarism occurred.

The claim of lack of intent. The subject used his account about how he prepared and used his
notes as support for the claim that the copying he did was inadvertent. The committee
apparently accepted this claim. The report gives several arguments regarding his intent:

1. ?le subject claimed that his copying was due to carelessness, and he in fact had a broad and
long-standing pattern of carelessness and luxity in his scholarly procedures. This argument
seems to assume that carelessness and plagiarism are mutually exclusive. Any evidence that the
subject is careless in general is supposed to be evidence that he did not plagiarize in a particular
instance. The truth is just the opposite: a person with a habit of carelessness is more, rather
than less, likely to cut corners by plagiarizing when he writes a proposal.

2. Much of the contents of                        is commonplace in this specialized field of
            This argument apparently means that, because the material is well known, the subject
could easily have failed to notice that he was copying from a published paper that needed to be
cited. This is a pure conjecture about the subject's thought processes. In any case, the
committee showed that the subject took an "original idea" from the paper without crediting the
authors. Even if he also copied well-known material from the paper, that should not have kept
him from noticing that he was using an original idea that was not his own and needed a source
reference.

3. Ejcperts in the field, including NSF reviewers, were apparently not misled and could sift the
subject's distinctive contributionfrom the more general material. This argument at most would
show that the plagiarism did not deceive anyone, not that it did not occur. The fact that
plagiarism is detected does not make it any the less plagiarism.

4. ?he subject had little to gain by plagiarizing porn                     On the face of it this
argument is patently false, since the subject was trying to demonstrate the novelty and value of
his ideas in order to obtain research funding. In support of the argument, the report says that
the subject made an original contribution of his own in this section of the proposal. This is
obviously irrelevant. The report argues further that this section is not the "linchpin" of the
proposal, but only a small part of it. This goes to the extent of the' plagiarism, rather than to
whether plagiarism occurred. Finally, the report claims that the subject would not have
committed deliberate plagiarism, and thereby risked detection by the experts that NSF would
appoint to review this proposal, because to do so would have exhibited "sheer stupidity". The
committee ruled out this possibility. Unfortunately, years of experience have shown that a
number of people have committed misconduct in science in situations where they might expect
to be caught, regardless of their level of intelligence.

The report does not say clearly what the committee concluded on the matter of intent. It says
in one place that there is "reasonable doubt that the subject intended to present the work of
others as his own." @. 2)' Elsewhere @. 22), it talks about its conclusions regarding intent
without saying what they are. It is possible that the committee drew the positive conclusion that
the subject had no intent to deceive. However, it seems more likely that its deliberations were
inconclusive and it gave the subject the benefit of the doubt because it thought the matter could
not be decided.

In any case, NSF is not bound by the institution's conclusions. Institutions are free to use their
own definitions, standards, and burdens of proof in evaluating the actions of their employees.
OIG assesses the evidence produced by the institution .independently, according to NSF's
definition and procedures set out in NSF's misconduct in science regulation at 45 C.F.R.part
689. The burden of proof to be met in proving an allegation of misconduct in science under
NSF's regulation is preponderance of the relevant evidence (45 C.F.R. 5 689.2(d)), not the more
strenuous reasonable doubt standard that is mentioned in the institution's report.

As noted, we do not find the defense based on a lack of intent to be persuasive. Not only is this
defense not based on verifiable evidence, but it contains inconsistencies and implausibilities.
Our conclusion that the subject committed plagiarism relies on the admitted fact that he copied
without attribution and showed a "laxity in research practices that constitutes a serious objective
violation of professional standards of scholarship". The questions raised about intent do not
weaken the force of this evidence. While doubts can always be raised about a subject's invisible
thoughts and intentions, the preponderance of the evidence favors a finding of plagiarism in this
case.

Conclusion and recommendations. The subject submitted three proposals to NSF that contained
text and research ideas copied from the                             Credit to the source was not
given. The-defense argued by the                                   committee is not persuasive.
Hence we recommend that NSF find that the subject has commined misconduct, and specifically
plagiarism, under NSF's d e f i t i o n of misconduct i n science.

As discussed at the beginning of this report, the institution has imposed severe sanctions on the
subject, including the equivalent, from the institution's point of view, of government-wide
debarment. Since this is a case of plagiarism in grant proposals, NSF must take its own action
to protect itself from any further misrepresentations by this individual. This will be particularly



    'While this passage suggests a standard of evidence based on "reasonable doubt", elsewhere
the report says that the preponderance of evidence ("more likely than not") is its standard. @.
22) It is not clear how the committee reconciled these two different standards. As explained
below, NSF uses the preponderance of the relevant evidence as its standard in misconduct cases.
important if the subject leaves his present institution and this institution is no longer in a position
to enforce its sanctions.

In the circumstances of this case, we believe the government's interest will be adequately
protected with the following sanctions in effect:

(1)    If, prior to December 19, 1993, the PI is an applicant (as principal investigator -or co-
       principal investigator) or is among the senior, key, or supervisory personnel on an
       application for financial or nonfinancial assistance or benefits submitted to any federal
       agency, the PI will provide that agency with a copy of the settlement agreement from this
       matter along with that application.

(2)    If, prior to December 19, 1993, the PI applies for full-time employment at any other
       institution, the PI will provide that institution.with a copy of .the:settlementagreement
       from this matter along with that application.

(3)     Until December 19, 1995, the PI will have all grant applications that are to be submitted
        to a federal agency reviewed by his department chair or a similar university official, in
        order to ensure that the PI has engaged in proper research practices. On those occasions,
        the PI should certify in writing that he has recently reviewed his institution's guidelines
        on misconduct in science, and that, to the best of his knowledge, his grant application
        is free of any such misconduct, and that his grant application has been reviewed as
        described herein. Concomitant with his submission of each grant application, the PI will
        send a copy of each certification to the Assistant Inspector General for Oversight in
        NSF's Office of Inspector General, to be placed in that office's file for this matter.2




     2 0 ~recommendation
            r                of NSF sanctions should not be seen as implying disapproval of the
sanctions imposed by the institution. On the contrary, its sanctions seem fully appropriate for
this case. OIG is recommending sanctions by NSF because of NSF's obligation to protect the
integrity of federal grant funds in the event that the subject leaves the institution or the institution
discontinues its own sanctions for any reason. The institution imposed its own sanctions in its
role as the subject's employer. Similarly, there are reasons why OIG reached a conclusion of
plagiarism while the institution did not. The difference is due in some degree to differences
between OIG's understanding of the role of intent under NSF's regulations and the committee's
understanding of the role of intent under the institution's regulations. As noted, there may also
be differences in the evaluation of evidence by OIG and by the committee.
